Office of Inspector General


           SEMIANNUAL
            REPORT TO
            CONGRESS


For the Period October 1, 2010 through March 31, 2011




                  Report No. 44
               



  “Democracy demands wisdom and vision in its citizens”
National Foundation on the Arts and Humanities Act of 1965
THE OFFICE OF INSPECTOR GENERAL

           serves American taxpayers
     by investigating reports of waste, fraud,
  mismanagement, abuse, integrity violations or
   unethical conduct involving Federal funds.



          To report any suspected activity
involving NEH programs, operations, or employees

              Call the OIG Hotline

                1 (877) 786-7598



                Mailing Address

  Office of Inspector General — Hotline
 National Endowment for the Humanities
    1100 Pennsylvania Ave. N.W., Room 419
           Washington, DC 20506


                      Fax

                (202) 606-8329


            Electronic Mail Hotline

                  oig@neh.gov




  Government employees are protected from reprisal

            Caller can remain anonymous

              Information is confidential
                                                                  May 10, 2011

Honorable James Leach
Chairman, National Council on the Humanities
National Endowment for the Humanities
Washington, DC 20506

Dear Chairman Leach:

I am pleased to provide you with the Office of Inspector General’s Semiannual Report to Congress
for the first half of the fiscal year 2011. This report is submitted in accordance with the Inspector
General Act of 1978, as amended. Section 5 of the Act requires that you submit this report, with
your Report of Final Action, to the appropriate committee or subcommittee of the Congress within
30 days of its receipt. The report provides a summary of the activities of the Office of Inspector
General (OIG) during the six-month period ended March 31, 2011.

During the current reporting period, we completed two internal reviews; two limited audits of gifts
certified under awards made through the Challenge Grants program; 10 desk reviews of Office of
Management and Budget (OMB) Circular A-133 audit reports, as issued by non-Federal auditors
concerning NEH grantees; and one peer review of the audit operations of the United States Capitol
Police Office of Inspector General. Also, the audit operations of the NEH OIG was reviewed by the
Consumer Product Safety Commission OIG and received a rating of “pass”. Lastly, the audit of the
agency’s financial statements for fiscal year 2010 was also completed during the current reporting
period.

In our investigations program, one matter was open as of the beginning of the reporting period. We
received 21 “Hotline” contacts during the period, and two matters remain open as of March 31,
2011.

I appreciate your support and look forward to working with you and all agency staff to further our
common purpose of assuring the effectiveness, efficiency and integrity of NEH’s vital contributions
to the humanities in the United States.

                                                                    Sincerely,



                                                                    Laura Davis
                                                                    Acting Inspector General

     1100 Pennsylvania Ave., N.W., Rm. 419, Washington, D.C. 20506 P 202.606.8350 F 202.606.8329 www.neh.gov/whoweare/OIG.html
                                                         OIG Hotline: (877) 786-7598
                                          TABLE OF CONTENTS


LETTER TO THE CHAIRMAN

EXECUTIVE SUMMARY………………………..………………………………………..                                                                                      1

THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ...................................                                                    2

THE OFFICE OF INSPECTOR GENERAL........................................................................                            2

AUDIT AND REVIEW ACTIVITIES .................................................................................                      3

INVESTIGATIVE ACTIVITIES …………………………………………………………                                                                                    9

OTHER ACTIVITIES ..........................................................................................................       11

TABLE I - REPORTING REQUIREMENTS…………………………………………… ..                                                                              13

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS................................................                                       14
WITH QUESTIONED COSTS

TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH ...................................                                             14
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY ........................................................................                            15

PEER REVIEW RESULTS………………………………………………………………...                                                                                Appendix A
                                          EXECUTIVE SUMMARY

         This reporting period has been very busy for the NEH OIG. I wish to thank the staff for their diligent and
         productive efforts over the past six months in light of the leadership and administrative changes impacting
         the office. In December 2010, our administrative assistant of 14 years retired and in January 2011, Mr.
         Sheldon Bernstein (first Inspector General to serve at the NEH) retired after 22 years of service to the
         OIG. We wish the two of them all the best.

         During the period covered by this report, we continued our series of limited audits of NEH challenge
         grants. As a result of our audit efforts, NEH management has implemented additional monitoring proce-
         dures to ensure grantee compliance with gift eligibility requirements.

         We resumed efforts to perform desk reviews of audit reports issued by non-Federal auditors pursuant to
         OMB Circular A-133. These reviews have revealed areas wherein recipients and independent public ac-
         countants are still lacking subsequent to the issuance of the Report on National Single Audit Sampling
         Project issued by the President’s Council on Integrity and Efficiency and the Executive Council on Integri-
         ty and Efficiency in June 2007 and efforts by the public accounting community to improve audit quality in
         response to the report.

         We have completed an inspection of the NEH grant monitoring function. We anticipate issuing the final
         report by early June.

         The OIG engaged the services of Leon Snead & Company (IPA) to conduct the annual audit of the NEH
         financial statements, as required by the Accountability of Tax Dollars Act of 2002. The OIG monitored
         the work of the auditors and examined audit workpapers and the draft report to ensure compliance with the
         applicable requirements. For the sixth consecutive year, the NEH received an unqualified opinion on the
         audited financial statements for fiscal year ended September 30, 2010. No internal control deficiencies or
         instances of noncompliance with applicable laws and regulations were noted by the IPA.

         Investigative efforts have been active over the past six months. OIG staff have been working closely with
         the U.S. Department of Justice and the National Science Foundation. Two cases remain active as of the
         end of the reporting period.

         Administratively, in accordance with the Inspector General Act of 2008, Public Law 110-409, we have
         renewed a Memorandum of Understanding with the General Counsel for the U.S. Treasury Inspector Gen-
         eral for Tax Administration for legal services during fiscal year 2011.

         Lastly, the Inspector General Act of 1978 (IG Act) required the NEH Inspector General to report to and be
         supervised by the head of the NEH, (the NEH Chairperson). The Dodd-Frank Wall Street Reform and
         Consumer Protection Act of 2010 amended the IG Act by changing the definition of the head of an agency
         from the entity head to its supervisory Board or Commission. The National Council on the Humanities
         (National Council) was established by Congress to advise the NEH Chairperson in supervising the work of
         the agency. The National Council currently has 24 members. The NEH Chairperson serves as the Chair-
         person of the full National Council. In order to conform to the new requirements enacted by the Dodd-
         Frank Wall Street Reform and Consumer Protection Act of 2010, during its March 2011 meeting, the Na-
         tional Council designated the NEH Chairperson as its representative and point-of-contact between the
         National Council and the NEH OIG. However, the NEH Inspector General will have the opportunity to
         directly address the full National Council on the activities of the NEH OIG at least once a year, or more
         often, as determined by the NEH Inspector General.




NEH OIG Semiannual Report                                    1                                               March 31, 2011
             THE NATIONAL ENDOWMENT FOR THE HUMANITIES
      In order to promote progress and scholarship in the humanities and the arts in the United States, Congress enacted
      the National Foundation on the Arts and the Humanities Act of 1965. This Act established the National Endow-
      ment for the Humanities (NEH) as an independent grant-making agency of the Federal government to support
      research, education, and public programs in the humanities. According to the Act, "The term 'humanities' in-
      cludes, but is not limited to, the study of the following: language, both modern and classical; linguistics; litera-
      ture; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criticism, and
      theory of the arts; those aspects of social sciences which have humanistic content and employ humanistic meth-
      ods; and the study and application of the humanities to the human environment with particular attention to reflect-
      ing our diverse heritage, traditions, and history and to the relevance of the humanities to the current conditions of
      national life."

      Grants are made through four divisions - Research Programs, Education Programs, Preservation and Access, and
      Public Programs -- and three offices -- Challenge Grants, Federal-State Partnership, and Digital Humanities. The
      divisions and offices also administer the We the People initiative.

      The NEH has launched a new initiative ~ Bridging Cultures. The initiative is designed to bridge both space and
      time to help American citizens gain a deeper understanding of their own varied cultural heritage, as well as the
      history and culture of other nations. The initiative encourages the exploration of ways in which cultures from
      around the globe, as well as the myriad subcultures within America’s borders, have influenced American society.




                             THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General was established April 9,1989, in accordance with the Inspector General
       Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established Offices of Inspector
       General in several departments and in thirty-three agencies, including the NEH. The NEH Inspector General
       (IG) is appointed by the Chairman. The independence of the IG is an important aspect of the Act. For example,
       the IG: cannot be prevented from initiating, carrying out, or completing an audit or investigation, or from issuing
       any subpoena; has access to all records of the agency; reports to the National Council on the Humanities through
       the NEH Chairman, and can only be removed by the National Council on the Humanities, which must give Con-
       gress 30 days notice of the reasons for the removal; reports directly to Congress.

       The Act states that the Office of Inspector General is responsible for (1) conducting audits and investigations; (2)
       reviewing legislation; (3) recommending policies to promote efficiency and effectiveness; and (4) preventing
       and detecting fraud, waste, and abuse in the operations of the agency. The Inspector General is also responsible
       for keeping the Chairman and Congress fully and currently informed of problems and deficiencies in the pro-
       grams and operations.

       The OIG staff consists of the Inspector General, Deputy Inspector General, two auditors, and a secretary. The
       OIG has a Memorandum of Understanding with the United States Treasury Inspector General for Tax Admin-
       istration detailing the procedures for the OIG to be provided legal services. Investigations are handled by the
       Inspector General and an auditor.




NEH OIG Semiannual Report                                          2                                                     March 31, 2011
                                       AUDIT AND REVIEW ACTIVITIES

                                            LIST OF REPORTS ISSUED
       This office is responsible for external and internal audits. External efforts include on-site grant audits, limited scope
       desk reviews, pre-award accounting system surveys, review of OMB Circular A-133 audit reports, and on-site quality
       control reviews of CPA workpapers. Internal efforts consist of audits, inspections, and reviews/evaluations of NEH
       administrative, programmatic, and financial operations. The OIG is also responsible for monitoring the work of the
       independent public accountant that conducts the annual audit of the NEH financial statements as required by the
       Accountability of Tax Dollars Act of 2002, and examining the audit workpapers and reports to ensure compliance with
       applicable requirements.

       Following is a list of reports issued by the OIG during this reporting period. The Inspector General Act of 1978, as
       amended, requires us to report on the "Dollar Value of Recommendations that Funds Be Put to Better Use" and the
       "Total Dollar Value of Questioned Costs" (including a separate category for the “Dollar Value of Unsupported Costs”),
       [see Tables II and III].



                                                                                    Report Number                      Date Issued

     INTERNAL AUDITS/REVIEWS

     Fiscal Year Ended September 30, 2010 Consolidated                        OIG-11-01 (Internal Review)               10/22/2010
      Review of the Federal Managers’ Financial Integrity
      Act (FMFIA)

     Final Audit Report                                                                   N/A                           11/08/2010
       NEH Financial Statement Audit ~ FY 2010

     Federal Information Security Act (FISMA) Office of                             OIG-11-02 (IR)                      02/17/2011
      Inspector General Section of the Reporting Document
      to the Office of Management and Budget


     EXTERNAL AUDITS/REVIEWS

     Limited Audit — Gifts Certified Under Challenge Grant                          OIG-11-01 (EA)                      10/13/2010
      to Christopher Newport University

     Limited Audit — Gifts Certified Under Challenge Grant                          OIG-11-02 (EA)                      12/13/2010
      to Springfield Library and Museums Association


     DESK REVIEWS

     Desk Review of the Single Audit Report for Year Ended                          OIG-11-01 (DR)                      10/19/2010
      October 31, 2009 — La Fundación Puertorriqueña de
      las Humanidades, Inc.

     Desk Review of the Single Audit Report for Year Ended                          OIG-11-02 (DR)                      11/19/2010
      December 31, 2009 — Vermont Humanities Council

     Desk Review of the Single Audit Report for Year Ended                          OIG-11-03 (DR)                      11/30/2010
      September 30, 2009 — National Constitution Center




NEH OIG Semiannual Report                                              3                                                  March 31, 2011
                                      AUDIT AND REVIEW ACTIVITIES

                                             LIST OF REPORTS ISSUED
                                                                   Report Number         Date Issued

       DESK REVIEWS (con’t.)

       Desk Review of the Single Audit Report for Year Ended       OIG-11-04 (DR)        11/19/2010
        October 31, 2009 — Delaware Humanities Council

       Desk Review of the Single Audit Report for Year Ended       OIG-11-05 (DR)        11/22/2010
        October 31, 2009 — Nebraska Humanities Council

       Desk Review of the Single Audit Report for Year Ended       OIG-11-06 (DR)        12/29/2010
        June 30, 2009 — Asian Art Museum of San Francisco

       Desk Review of the Single Audit Report for Year Ended       OIG-11-07 (DR)        12/30/2010
        October 31, 2009 — Pennsylvania Humanities Council

       Desk Review of the Single Audit Report for Year Ended       OIG-11-08 (DR)        02/01/2011
        October 31, 2009 — Minnesota Humanities Center

       Desk Review of the Single Audit Report for Year Ended       OIG-11-09 (DR)        03/18/2011
        June 30, 2010 — Newberry Library

       Desk Review of the Single Audit Report for Year Ended       OIG-11-10 (DR)        03/23/2011
        October 31, 2009 — South Carolina Humanities Council



       OTHER REPORTS

       System Review Report on the United States Capitol                   N/A           01/27/2011
        Police Office of Inspector General



       SINGLE AUDIT ACT REVIEWS

       OMB Circular A-133 Reports                                     —- See Page 7 —-




NEH OIG Semiannual Report                                      4                          March 31, 2011
                                    AUDIT AND REVIEW ACTIVITIES

                                       SUMMARY OF REPORTS ISSUED
                                             INTERNAL AUDITS/REVIEWS


                                          Fiscal Year Ended September 30, 2010
                                                Consolidated Review of the
                                    Federal Managers’ Financial Integrity Act (FMFIA)
                                      October 22, 2010; OIG-11-01 (Internal Review)

      We made a limited review of the evaluations conducted by NEH division directors and office heads in ac-
      cordance with Office of Management and Budget (OMB), Guidelines for the Evaluation and Improvement of
      and Reporting on Internal Control Systems in the Federal Government and Guidelines for Evaluating Finan-
      cial Management/Accounting Systems, for the fiscal year ended September 30, 2010.

      We made our review to determine if the evaluations appear to be reasonable and prudent. Nothing came to
      our attention that would indicate that the evaluations reviewed did not comply with the applicable guidelines.


                                                  Final Audit Report
                                    NEH Financial Statement Audit ~ Fiscal Year 2010
                                                   November 8, 2010

      The Office of Inspector General (OIG) engaged Leon Snead & Company, P.C., (IPA) to perform the Fiscal
      Year 2010 Financial Statement Audit as required by the Accountability of Tax Dollars Act of 2002. The OIG
      was responsible for 1) evaluating the qualifications and independence of the auditors; 2) reviewing the audit
      approach and planning; 3) monitoring the work of the auditors; 4) examining audit workpapers and reports to
      ensure compliance with Government Auditing Standards, OMB Bulletin No. 07-04, Audit Requirements for
      Federal Financial Statements (as amended), and the Financial Audit Manual issued jointly by the Govern-
      ment Accountability Office (GAO) and the President’s Council on Integrity and Efficiency (PCIE); and 5)
      other procedures deemed necessary to oversee the contract and the audit.

      The IPA expressed an unqualified opinion on the NEH financial statements as of and for the years ended Sep-
      tember 30, 2010 and 2009. Fiscal year 2010 marks the sixth year that NEH has received an unqualified opin-
      ion. The IPA’s testing of internal control identified no deficiencies in internal control considered to be mate-
      rial weaknesses and the results of the IPA’s tests of compliance with certain provisions of laws and regula-
      tions disclosed no instances of noncompliance required to be reported. There were no prior year unresolved
      findings.


                                          Federal Information Security Act (FISMA)
                            Office of Inspector General Section of the Reporting Document to the
                                              Office of Management and Budget
                                             February 17, 2011; OIG-11-02 (IR)

      We completed the Office of Inspector General section of the 2010 Annual FISMA Report to the Office of
      Management and Budget, which was transmitted to OMB on November 15, 2010 via the CyberScope portal.
      This report documents the OIG responses to OMB’s questions concerning the NEH’s computer security.



NEH OIG Semiannual Report                                     5                                             March 31, 2011
                                  AUDIT AND REVIEW ACTIVITIES

                                              EXTERNAL AUDITS/REVIEWS

                               Limited Audit — Gifts Certified Under Challenge Grant to
                                           Christopher Newport University
                                          October 13, 2010; OIG-11-01 (EA)

   We performed a limited audit of the Christopher Newport University Education Foundation (the “Foundation”) rec-
   ords as they relate to NEH challenge grant CZ-50196-09. The Foundation certified that eligible gifts were received
   and used to meet the matching requirements stipulated by the challenge grant. The principal objectives of our limited
   audit were to determine that (1) the gifts certified by the Foundation meet the eligibility requirements established by
   NEH for the release of Federal matching funds; and (2) grant expenditures are made in accordance with applicable
   provisions of NEH’s General Terms and Conditions for Awards to Organizations and the terms of the budget ap-
   proved by NEH and any amendments. Our review was conducted in accordance with Generally Accepted Govern-
   ment Auditing Standards (GAGAS).

   We identified unallowable expenditures approximating $5,000. We also made a recommendation concerning the
   Foundation’s internal policy guidance to ensure the challenge grant gifts are properly classified between the tempo-
   rarily restricted and permanently restricted net asset categories.

   Foundation management concurred with our findings and has properly implemented corrective actions in response to
   the OIG recommendations.


                               Limited Audit — Gifts Certified Under Challenge Grant to
                                     Springfield Library and Museums Association
                                         December 13, 2010; OIG-11-02 (EA)

   We performed a limited audit of the Springfield Library and Museums Association (the “Association”)
   records as they relate to NEH challenge grant CH-50569-09. The Association certified that eligible gifts were re-
   ceived and used to meet the matching requirements stipulated by the challenge grant. The principal objectives of our
   limited audit were to determine that (1) the gifts certified by the Association meet the eligibility requirements estab-
   lished by NEH for the release of Federal matching funds; (2) grant expenditures are made in accordance with applica-
   ble provisions of NEH’s General Terms and Conditions for Awards to Organizations and the terms of the budget ap-
   proved by NEH and any amendments; and (3) Davis-Bacon Act compliance requirements were adhered to with this
   construction-based award. Our review was conducted in accordance with Generally Accepted Government Auditing
   Standards (GAGAS).

   We found that a contract executed for work under the project supported by the challenge grant lacked the required
   references to the Davis-Bacon Act and the prevailing wage requirement. Additionally, the related request for bids
   (RFP) used to solicit proposals for the work could not be located for our review. We ultimately verified that employ-
   ees associated with the contract were paid wages that exceeded the Department of Labor prevailing wage rates. We
   recommended that the Association’s management implement new procedures to ensure that (1) all future federally-
   financed construction work is supported by signed agreements that incorporate the required Davis –Bacon Act lan-
   guage; and (2) all related documentation is properly retained in accordance with document retention standards.

   The Association’s management concurred with our findings and has properly acted upon our findings.




NEH OIG Semiannual Report                                    6                                             March 31, 2011
                                 AUDIT AND REVIEW ACTIVITIES

                                                    DESK REVIEWS

   During the reporting period, we completed and issued ten (10) desk review letters concerning the results of our re-
   view of OMB Circular A-133 audit reports. The objectives of the desk reviews were to: (1) determine whether the
   audit reports are acceptable under the reporting requirements of OMB Circular A-133; (2) identify any quality issues
   that may warrant follow-up work and/or revisions to the audit report; (3) identify audits for potential Quality Control
   Reviews (QCR); and (4) identify issues that may require the attention of NEH management. We used the Guide for
   Desk Reviews of OMB Circular A-133 Audit Reports, issued by the Council of Inspectors General on Integrity and
   Efficiency (CIGIE) to determine if the reports were in conformance with the core reporting requirements stipulated by
   OMB Circular A-133.

   We determined that two (2) reports were acceptable; four (4) reports were acceptable with deficiencies; two (2) re-
   ports were technically deficient; and two (2) reports were unacceptable. Audit reports determined to be technically
   deficient or unacceptable required corrective action and resubmission. A recurring deficiency noted during our re-
   views related to the lack of disclosure of subrecipient awards in the Schedule of Federal Expenditures, as required by
   OMB Circular A-133.310(b)(5).

   The following desk reviews were in progress as of March 31, 2011:

               Arkansas Humanities Council (FYE October 31, 2009)
               Humanities Council of Washington, DC (FYE October 31, 2009)
               Humanities Washington (FYE December 31, 2009)
               New York Council for the Humanities (FYE October 31, 2009)
               Hawaii Council for the Humanities (FYE October 31, 2009)
               California Council for the Humanities (FYE October 31, 2009)
               Nevada Humanities (FYE October 31, 2009)
               Mississippi Humanities Council (October 31, 2009)
               Kentucky Humanities Council (October 31, 2009)
               Florida Humanities Council (October 31, 2010)


                                            SINGLE AUDIT ACT REVIEWS

   OMB Circular A-133 establishes audit requirements for state and local governments, colleges and universities, and
   non-profit organizations receiving Federal awards. Covered entities, as defined by the Circular, that expend $500,000
   or more a year in Federal awards must obtain an annual organization-wide audit that includes the entity’s financial
   statements and compliance with Federal award requirements. The audits are conducted by non-Federal auditors, such
   as public accounting firms and state auditors. The OIG reviews the audit reports for findings and questioned costs
   related to NEH awards, and to ensure that the reports comply with the requirements of OMB Circular A-133, (see
   Desk Reviews above).

   During the six-month period ended March 31, 2011, the OIG referred findings noted in eleven (11) audit reports to
   NEH for resolution. The independent auditors identified 21 findings at eleven NEH grantees. Many of the findings
   involved grantee non-compliance with applicable Federal procurement requirements and lack of timeliness when sub-
   mitting required financial and/or performance reports.




NEH OIG Semiannual Report                                    7                                            March 31, 2011
                                  AUDIT AND REVIEW ACTIVITIES

                                                WORK IN PROGRESS

    Limited Audit ~ Wyoming Humanities Council

    The objective of this limited audit is to determine if the cost-sharing requirement applicable to NEH grant
    SO-50059-04 was satisfied and that the Council’s share of outlays, as reported to the NEH, is substantiated and
    complies with the applicable NEH guidelines.

    Inspection ~ NEH Grant Monitoring Function

    The objectives of this inspection are to determine 1) if there are agency-wide policies and procedures for moni-
    toring grants and if so, whether the offices and divisions responsible for the monitoring function are complying
    with those policies and procedures; 2) if the program offices, Accounting Office, and the Office of Grant Man-
    agement have policies and procedures to monitor grants and if so, whether they are complying with those poli-
    cies and procedures; 3) what factors are used to select awards for monitoring; and 4) what mechanism is used
    by the offices and divisions responsible for the monitoring function to assess the effectiveness and/or adequacy
    of their monitoring procedures.

    Cost Incurred Audit ~ Medieval Academy of America

    The principal objectives of this limited audit is to determine that (1) grant expenditures were made in accord-
    ance with applicable provisions of NEH’s General Terms and Conditions for Awards to Organizations and the
    terms of the approved grant awards; and (2) proper controls over the use of the Federal funds exist in accord-
    ance with minimum standards prescribed in OMB Circulars A-110 and A-122.

    Limited Audit ~ Marquette Historical Society

    The principal objectives of this limited audit are to determine that (1) the gifts certified by the Society under
    NEH challenge grant CH-50604-09 are eligible to release Federal matching funds; (2) grant expenditures are
    made in accordance with applicable provisions of NEH’s General Terms and Conditions for Awards to Organi-
    zations and the terms of the approved challenge grant budget; and (3) construction work complied with Davis-
    Bacon Act requirements.

    Limited Audit ~ University of California Press Foundation

    The principal objectives of this limited audit are to determine that (1) the gifts certified by the University of
    California Press Foundation under NEH challenge grant CH-50213-06 are eligible to release Federal matching
    funds; (2) grant expenditures are made in accordance with applicable provisions of NEH’s General Terms and
    Conditions for Awards to Organizations and the terms of the approved challenge grant budget; and (3) proper
    controls over the use of the endowment funds and the related earnings exist.

    Limited Audit ~ Filmmakers Collaborative

    The objective of this limited audit is to determine if expenditures reported by Filmmakers Collaborative for
    NEH grant TR-50093-09 are accurate and represent allowable and allocable costs in accordance with the provi-
    sions of the approved budget (and subsequent revisions) and applicable OMB Circulars.




NEH OIG Semiannual Report                                     8                                           March 31, 2011
                                   INVESTIGATIVE ACTIVITIES

                                                   BACKGROUND

  The Inspector General Act provides the authority for the Office of Inspector General to investigate possible vio-
  lations of criminal or civil laws, administrative regulations, and agency policies, which relate to the programs
  and operations of the NEH. The OIG Hotline, e-mail address, and regular mail are efficient and effective means
  of receiving allegations or complaints from employees, grantees, contractors, and the general public. The OIG
  has obtained assistance from other OIGs, the Federal Bureau of Investigation, the Postal Inspection Service, and
  other investigative entities as necessary.

  When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a determi-
  nation of the appropriate action to take. The result could be an audit, an investigation, a referral to another NEH
  office or division, a referral to another Federal agency, or no action. When we determine that a case involves a
  crime, we will ask the Federal Bureau of Investigations, another Federal Inspector General, or the United States
  Attorney’s office for assistance.

  During the past several years, the OIG has frequently received Hotline contacts and did not have sufficient re-
  sources to complete the inquiry or investigation in a timely manner. Therefore, to remedy this problem, we
  have been inquiring of other OIGs concerning their willingness and ability to assist us on an “as needed” basis
  under a reimbursable agreement. Several OIGs responded they would consider performing work for us on a
  case-by-case basis, depending on the availability of their staff to assist us. However, this assistance would be
  for criminal cases only and we have no guarantee that the OIGs would have staff available when needed.


                                           OPEN AT OCTOBER 1, 2010

  One matter was open as of October 1, 2010. The matter involves criminal activity and we are currently working
  with an Assistant United States Attorney and Department of Justice Special Agent. This case remains active as of
  the end of this reporting period.


                   CONTACTS DURING THE SIX-MONTH PERIOD ENDED MARCH 31, 2011

  We received twenty-one (21) contacts during the current reporting period.

  One contact included allegations of inappropriate uses of Federal funds related to an NEH award made to a uni-
  versity. The matter was investigated by the university’s Audit and Advisory Services in conjunction with the uni-
  versity’s management. The internal investigation resulted in the reimbursement of $22,341 to the NEH, which
  represents charges deemed unallowable or not allocable to the NEH grant. We have closed this matter based on
  the university’s internal investigative efforts.

  One matter involves an NEH employee. We are in the process of gathering preliminary information necessary to
  plan our approach concerning the allegations.

  Two contacts were FOIA matters which were referred to the NEH Office of General Counsel.

  Seventeen contacts concerned matters that lacked sufficient attributes of criminal or administrative violations.




NEH OIG Semiannual Report                                   9                                                March 31,2011
                              INVESTIGATIVE ACTIVITIES (Continued)

                                            OPEN AT MARCH 31, 2011

       Two matters are open as of March 31, 2011.


                            MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

       We referred one matter to the U.S. Department of Justice during this period.

                                     HOTLINE AND PREVENTION ACTIVITIES

      We maintain a toll-free Hotline number, an agency e-mail address, and an internet address to provide
      additional confidentiality for those persons bringing matters to the attention of the OIG. We periodically
      issue agency-wide e-mail messages informing NEH staff of violations that are reportable to the OIG.
      We also send e-mail messages several times during the year to inform NEH staff about the OIG opera-
      tions. Posters advising staff to contact the OIG are displayed throughout the agency’s facilities.

      An OIG staff person also makes a brief presentation during meetings convened by NEH program man-
      agement involving project directors of new awardees. The presentations include an overview of OIG
      operations and emphasize the importance of recipients understanding the administrative requirements
      and specific terms and conditions applicable to their respective awards.

                                       SUMMARY OF INVESTIGATION ACTIVITY


                                          Open at beginning of period                 1



                                       Matters brought to the OIG during
                                              the reporting period                21



                                           Total investigative contacts           22

                                      Closed, referred, or no action needed       20
                                           during the reporting period

                                             Open at end of period                    2




NEH OIG Semiannual Report                                   10                                             March 31, 2011
                                              OTHER ACTIVITIES

                                 REGULATORY AND LEGISLATIVE REVIEWS

The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review proposed legisla-
tion and regulations. The reviews are to assess whether proposed legislation and/or regulations (1) affect the economy
and efficiency of agency programs and operations, and (2) contain adequate internal controls to prevent and detect
fraud and abuse. During this period, no legislative reviews were required for NEH. However, we provided responses
to the Council of Inspectors General on Integrity and Efficiency concerning legislation affecting the Inspector General
community.

                                         WORKING WITH THE AGENCY

OIG staff attended various NEH meetings – panel meetings (where grant applications are reviewed by outside consult-
ants), pre-council meetings (where program staff discuss panel review results with the Chairman and his immediate
staff), and meetings of the National Council on the Humanities. Also, the IG or Deputy IG attends the Chairman’s
monthly policy group meetings. The Office of Inspector General may contribute to the discussions but does not partic-
ipate in policymaking.

OIG staff made presentations about the NEH Office of Inspector General and the OIG Hotline during meetings held at
the NEH with grant project directors in receipt of awards through the Division of Education (NEH Landmarks of
American History and Culture for 2011 and NEH Humanities Initiatives at Historically Black Colleges and Universi-
ties, Institutions with High Hispanic Enrollment, and Tribal Colleges and Universities) and awards related to the NEH
Bridging Cultures initiative.

OIG staff also participated with the Chairman, program staff, and grant management staff in the 2010 National Hu-
manities Conference sponsored by the Federation of State Humanities Councils. OIG staff conducted a workshop dis-
cussing accountability and compliance matters applicable to state council organizations. The workshop was attended
by Board members, executive directors, and council personnel charged with fiscal responsibilities.


                        PARTICIPATION ON THE COUNCIL OF INSPECTORS GENERAL
                                    ON INTEGRITY AND EFFICIENCY

The Inspector General Reform Act of 2008, Public Law 110-409, amended the Inspector General Act of 1978 and es-
tablished the Council of Inspectors General on Integrity and Efficiency (CIGIE). The CIGIE is comprised of all In-
spectors General whose offices are established by the Inspector General Act of 1978 — those that are Presidentially-
appointed/Senate-confirmed and those that are appointed by agency heads (designated Federal entities). During the
six-month period ending March 31, 2011, OIG staff regularly attended CIGIE meetings and provided input. The for-
mer Inspector General was a member of the Grant Fraud Committee (a subcommittee of the National Procurement
Fraud Task Force) and participated in the Misconduct in Research meetings. The Deputy IG attends meetings of the
Federal Audit Executive Council (FAEC), the monthly meetings of the Financial Statement Audit Network (a subcom-
mittee of the FAEC), and the Single Audit Roundtable.


                                      INTRA-GOVERNMENTAL ACTIVITY

Collaboration with the National Science Foundation ~ Office of Inspector General

OIG staff is participating in a joint investigative effort concerning a major media grantee. The joint effort involves IG
staff from three (3) Federal agencies. NSF ~ OIG is leading the investigation.


NEH OIG Semiannual Report                                   11                                                March 31, 2011
                                  OTHER ACTIVITIES (Continued)

                                       OIG INTERNET AND INTRANET

  The OIG has posted several audit/review reports and semiannual reports on the internet and on the NEH intranet.
  The reports are accessible through the NEH homepage and the OIG homepage (http://www.neh.gov/whoweare/
  OIG.html).

  To advance NEH staff recognition of the OIG mission and responsibilities, we provide links to several other Fed-
  eral agencies such as the Office of Management and Budget, the Government Accountability Office, the Office of
  Government Ethics, and the IGNET.

                                           TECHNICAL ASSISTANCE

  Throughout the reporting period, OIG staff provided technical help to NEH staff, grantees, and independent public
  accountants about various matters. Generally, these involve the implementation of the audit requirements of OMB
  Circular A-133.




NEH OIG Semiannual Report                                 12                                            March 31, 2011
                                                       TABLE I

                                  REPORTING REQUIREMENTS


       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting requirements for
       semiannual reports. The requirements are listed and cross-referenced to the applicable pages in this report.


       IG Act Reference                           Reporting Requirements                                  Page

       Section 4(a)(2)            Regulatory and Legislative Reviews………………………………                           11

       Section 5(a)(1)            Significant Problems, Abuses, and Deficiencies………………..…                  .*

       Section 5(a)(2)            Recommendations for Corrective Action …………………………                         .*

       Section 5(a)(3)            Prior Significant Recommendations Unimplemented…………..…                    *

       Section 5(a)(4)            Matters Referred to Prosecutive Authorities………………………                      10

       Section 5(a)(5)            Instances Where Information Was Refused or Not Provided……..              *

       Section 5(a)(6)            List of Reports Issued………..…………………………………….                              3-4

       Section 5(a)(7)            Summary of Reports Issued.……………………………………….                              5-7

       Section 5(a)(8)            Audit Reports - Questioned Costs….………………………………                           14

       Section 5(a)(9)            Audit Report - Funds To Be Put to Better Use.…….……………...                 14

       Section 5(a)(10)           Prior Audit Reports Unresolved……………………………………                              *

       Section 5(a)(11)           Significant Revised Management Decisions……………………….                        *

       Section 5(a)(12)           Significant Management Decisions with which OIG Disagreed…..              *

       Section 5(a)(14-16)        Peer Review Results………………………………………………. Appendix A


        * None this period




NEH OIG Semiannual Report                                        13                                              March 31, 2011
                                                      TABLE II
                                         INSPECTOR GENERAL-ISSUED REPORTS
                                               WITH QUESTIONED COSTS


                                                                               Number     Questioned   Unsupported
                                                                             Of Reports    Cost          Cost
         A. For which no management decision has been made by the                  -1-     $491,667       $-0-
            commencement of the reporting period.

         B. Which were issued during the reporting period.                         -1-     $   5,000      $-0-

                                     Subtotals (A+B)                               -2-     $496,667       $-0-

         C. For which a management decision was made during
            the reporting period.

                  i.    Dollar value of disallowed costs.                          -1-     $ 5,000        $ -0-

                  ii.   Dollar value of costs not disallowed (grantee              -0-     $ -0-          $ -0-
                        subsequently supported costs).

                  iii. Dollar value of costs not disallowed based on the           -0-     $ -0-          $ -0-
                       “Value of Services Received.”

         D. For which no management decision has been made by the                  -1-     $491,667       $ -0-
            end of the reporting period.

         E. Reports for which no management decision was made within               -1-     $491,667       $ -0-
            six months of issuance.




                                                    TABLE III
                                        INSPECTOR GENERAL-ISSUED REPORTS
                               WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                                                  Number         Dollar
                                                                                                  Of Reports     Value

         A. For which no management decision has been made by the commencement                         -0-      $-0-
            of the reporting period.

         B. Which were issued during the reporting period.                                             -0-      $-0-

         C. For which a management decision was made during the reporting period.                      -0-      $-0-

                  i. Dollar value of recommendations that were agreed to by management.                         $-0-

                  ii. Dollar value of recommendations that were not agreed to by                                $-0-
                      management.

         D. For which no management decision was made by the end of the reporting period.              -0-      $-0-




NEH OIG Semiannual Report                                       14                                             March 31, 2011
                            GLOSSARY OF AUDIT TERMINOLOGY


        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation; or
        because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                   15                                          March 31, 2011
                                                                                        APPENDIX A

                                               PEER REVIEW RESULTS


       The following information is provided pursuant to the requirements of Section 989C of Public Law 111-203
       (July 21, 2010), the Dodd-Frank Wall Street Reform and Consumer Protection Act, amending the Inspector
       General Act of 1978 (the IG Act), 5 U.S.C. App. This appendix complies with Section 5(a)(14 - 16) of the IG
       Act of 1978, as amended.


       (14)(A) Peer Review of the Audit Function. On December 9, 2010, the U.S. Consumer Product Safety
       Commission (CPSC) issued a System Review Report on the audit organization of the NEH OIG in effect for
       the year ended March 31, 2010. The CPSC found that the system of quality control for the audit organization
       of the NEH OIG had been suitably designed and complied with to provide reasonable assurance of performing
       and reporting in conformity with applicable professional standards in all material respects. Federal audit
       organizations can receive a rating of pass, pass with deficiencies, or fail. The NEH OIG received a peer review
       rating of pass.

       ( 15 ) Outstanding Recommendations from any Peer Review of the NEH OIG. There are no outstanding
       recommendations from any peer review of the NEH OIG conducted by another Office of Inspector General
       that have not been fully implemented.

       ( 16 ) Peer Review Conducted by the NEH OIG. On January 27, 2011, the NEH OIG issued a System
       Review Report on the United States Capitol Police (USCP) Office of Inspector General audit organization in
       effect for the year ended September 30, 2010. We found that the system of quality control for the audit organi-
       zation of the USCP OIG had been suitably designed and complied with to provide USCP OIG with reasonable
       assurance of performing and reporting in conformity with applicable professional standards in all material
       respects. The USCP OIG received a peer review rating of pass.




NEH OIG Semiannual Report                                                                               March 31, 2011
